                           STATE OF MARYLAND

                EVALUATION OF GRANT OBLIGATIONS
                       AND EXPENDITURES

               WORKFORCE INVESTMENT ACT GRANTS
                AND JOB TRAINING PARTNERSHIP ACT
                        TRANSITION FUNDS


               INDEPENDENT ACCOUNTANT’S REPORT
              ON APPLYING AGREED-UPON PROCEDURES

              JULY 1, 2000 THROUGH DECEMEBER 31, 2001




This agreed-upon procedures report was prepared by Harper, Rains, Stokes and Knight, P.A.,
under contract to the U.S. Department of Labor, Office of the Inspector General, and, by
acceptance, it becomes a report of the Office of Inspector General.


                         _____________________________________
                         Assistant Inspector General for Audit
                         U. S. Department of Labor




                                                 Report No: 04-03-009-03-390
                                                 Date Issued: March 28, 2003

                    HARPER, RAINS, STOKES, & KNIGHT, P.A.
                                             TABLE OF CONTENTS


Acronyms .......................................................................................................................................iii

Independent Accountant’s Report on Applying Agreed-Upon Procedures .................................... 1

Summary of Results ........................................................................................................................ 2

Background, Scope and Methodology ........................................................................................... 3

           Background ......................................................................................................................... 3
           Scope and Methodology...................................................................................................... 4

Procedures and Findings ................................................................................................................. 5

Exhibit I – Sample Financial Status Report

Exhibit II – State of Maryland’s Response




                                                                  ii
                       ACRONYMS


CFR    Code of Federal Regulations

DLLR   Maryland Employment and Training Administration, Department
       of Labor, Licensing and Regulation

DOL    U.S. Department of Labor

ETA    Employment and Training Administration

FIFO   First-In-First-Out

FSR    Financial Status Report

FY     Fiscal Year

JTPA   Job Training Partnership Act

OIG    Office of the Inspector General

OGCM   Office of Grants and Contract Management

PY     Program Year

QSR    Quarterly Status Report

WIA    Workforce Investment Act




                            iii
                               SUMMARY OF RESULTS


We obtained and summarized the WIA funds obligated and expended as of
December 31, 2001, based on records available at DLLR. We determined that the
obligation information reported by DLLR included the actual obligations for State-wide
activities. However, the portion of obligations reported on the Financial Status Reports
(FSRs) attributable to Local Boards included all grant funds passed to the Local Boards,
not just the amounts that the Local Boards had actually obligated.

We found that the accounting records supported the amounts reported as obligations and
expenditures on FSRs. Procedures were established for recording transactions on the
accrual basis of accounting at both State and Local program levels, in accordance with
Federal regulations. The amounts of expenditures reported to DLLR by Local Boards
were substantiated by reports submitted from the Local Boards.

As of December 31, 2001, Maryland had expended $54 million of the $98.4 million
awarded, leaving $44.4 million or 45.1 percent unexpended. At this rate of spending, it
would take approximately fifteen months to spend the remaining funds, during which
time DLLR would receive additional WIA allocations.

DLLR and Local Boards charged expenditures to WIA grants on a First-In-First-Out
(FIFO) basis, rather than matching Program Year (PY) expenditures with the grant
applicable to that period in which the expenditures accrued.

State of Maryland’s Response

The Maryland Department of Labor, Licensing and Regulation provided a written
response to our draft report, dated March 19, 2003, which is included in its entirety at
Exhibit II. The State agreed with the information presented in the report.




                                             2
BACKGROUND, SCOPE AND METHODOLOGY


Background

WIA, enacted in 1998, was designed to reform prior Federal job training programs and
create a new comprehensive workforce investment system. The new system intends to
provide customer-focused services, assist Americans in accessing the tools needed to
manage their careers through information and services, and assist U.S. companies in
finding skilled workers. WIA superseded JTPA and amended the Wagner-Peyser Act.

Initial grants for the WIA program were awarded by DOL, ETA, beginning in PY 2000.
However, unexpended funds from the PY 1998 and PY 1999 JTPA programs were
authorized for transition into the WIA program. Generally, the states are required to pass
through approximately 85 percent of the awards received from DOL to Local Boards
(subrecipients). States have the original program year plus two additional program years
to spend the grant funds. However, funds allocated by a State to a Local Board for any
program year are available for expenditure only during that program year and the
succeeding program year. Funds that are not expended by a Local Board in this two-year
period must be returned to the State.

States are required to report WIA activities on quarterly Financial Status Reports (FSRs).
Accrued expenditures and obligations are key items reported on the FSRs. Accrued
expenditures are reported when a valid liability has been created through delivery of
goods or services, regardless of when cash payment is made. For example, salaries
earned by employees, but not yet paid, should be recorded as accrued expenditures.
Obligations are reported when certain events occur which will require payment by the
States or Local Boards in the same or a future period. Obligations are defined in the WIA
regulation as follows:

       . . .the amounts of orders placed, contracts and subgrants awarded,
       goods and services received, and similar transactions during a funding
       period that will require payment by the recipient or subrecipient during
       the same or a future period (20 CFR 660.300) [emphasis added].

However, according to ETA, Office of Grants and Contract Management (OGCM),
States have been verbally instructed to report obligations for Statewide Activities and
Rapid Response only for those amounts of funding for which a legal liability exists at the
State Level. Likewise, the State has been instructed to report obligations for Local Board
activities (Local Administration, Youth, Adult and Dislocated Workers) only for those
amounts of funding for which a legal obligation exists at the Local Board level.

ETA had not clearly specified whether Local Boards’ obligations or the State’s pass-
through awards should be included on FSRs.




                                            3
Scope and Methodology

Our agreed-upon procedures include WIA funds awarded to DLLR for PY 2000, FY
2001, PY 2001 and FY 2002, as well as PY 1998 and PY 1999 JTPA funds transitioned
into the WIA program. Procedures were applied to grant activities reported by DLLR
and three Local Boards (Baltimore City, Baltimore County and Montgomery County) for
the period July 1, 2000 through December 31, 2001.

In general, our procedures were designed to summarize DLLR’s WIA financial activity
(obligations and expenditures) through December 31, 2001, to determine if the amounts
reported to ETA agreed with the supporting accounting records, and to measure the
extent to which DLLR and Local Boards have obligated and expended WIA funds.




                                          4
                         PROCEDURES AND FINDINGS


1.   Interview the appropriate State personnel regarding how information is
     accumulated from the Local Boards and about the preparation of the FSR.
     Using this information, verify exactly what obligations were reported on the
     December 31, 2001 WIA Quarterly FSRs. Determine if the amounts passed
     through to the Local Boards are reported as obligations on the FSRs. Based
     on the information obtained, determine if the State is reporting obligations as
     described at 20 CFR 660.300 to include subgrants awarded to subrecipients.

     As of December 31, 2001, amounts reported as “obligations” on FSRs for the
     Adult, Youth and Dislocated Workers programs as well as Local administrative
     expenses were funds that DLLR had allocated to Local Boards, not legal
     obligations to service providers. Amounts reported as Federal obligations on
     FSRs for State-level activities did represent legal obligations to service providers.

     The Local Boards reported financial activities to DLLR using a “Quarterly Status
     Report” (QSR). During our review period (July 1, 2000 to December 31, 2001),
     Local Boards did not report obligations to DLLR nor did their financial systems
     capture obligations. Instead, only the Local Boards’ available funds and
     expenditures were reported to DLLR. Using the information reported on QSRs,
     DLLR prepared a summary schedule of expenditures and obligations that detailed
     the amounts of expenditures at each Local Board along with each of the Board’s
     funding allocations.

     According to representatives of DLLR, amounts passed through to Local Boards
     are considered “obligated” at the time the funds are allocated to Local Boards.
     Reporting of funds passed to Local Boards as “obligated” does not consider
     whether bona fide legal obligations exist, and may overstate reported obligations.

     ETA did not provide Maryland clear instructions interpreting 20 CFR 660.300
     regarding whether Local Board legal obligations or State pass-through awards
     should have been reported on the FSRs. Based on our review of schedules and
     detail reports provided as support for the FSRs, we determined that obligations
     reported on the FSRs represented amounts awarded as subgrants to subrecipients,
     not legal obligations. Consequently, DLLR is reporting obligations as defined in
     20 CFR 660.300, not as ETA contends they were verbally instructed to report.




                                           5
     2. Determine how DLLR tracks the various funding periods for both DLLR
        activities and Local Board activities, and if data is accounted for in a manner
        that will allow expenditures to be matched against the appropriate
        obligation.

        Based on discussions with representatives of DLLR as well as examination of
        financial records at DLLR and Local Boards, we determined that DLLR does not
        match expenditures with the appropriate fiscal period’s funding. Rather,
        expenditures of a given period are charged against the oldest available funding.

        Expenditure information reported to the DLLR by the Local Boards was
        identified by funding period; however, reported expenditures were charged to the
        earliest year that funding was available, rather than the year in which the
        expenditures accrued. As a result, a program’s cost could not be matched with the
        period for which it was funded.

3.      Determine if the expenditure information (Outlays on the December 31, 2001
        FSRs) was reported on the accrual basis of accounting as required at 29 CFR
        97 and the WIA reporting instructions at 20 CFR 667.300 (c) (3).

        As discussed in greater detail at item 8 of this report, Local Boards used QSRs to
        report to DLLR. These quarterly reports detail the amounts of expenditures
        incurred by Local Boards in addition to total funding allocated to Local Boards.
        DLLR rolls the accrued expenditures up into the Federal FSR as “Outlays”.

        We reviewed the instructions provided by DLLR to the Local Boards and
        determined that the amounts identified as “accrued expenditures” should include
        expenditures that have been incurred, but for which payment has not been made
        by the Local Boards. This manner of reporting is consistent with the accrual basis
        of accounting required by 29 CFR 97 and the instructions at 20 CFR 667.300.

        We made specific inquiries of Local Board representatives regarding the inclusion
        of accruals in the amounts reported as expenditures to DLLR. Representatives of
        the three Local Boards we visited stated that amounts reported as expenditures
        included accruals, as the instructions required.




                                             6
4.   Determine what information is required to be reported by the Local Boards
     to DLLR, including the content, format, frequency and any written
     instructions issued by DLLR. Obtain copies of reports submitted by the
     Local Boards and copies of written instructions.

     Our review of the Fiscal Reporting Requirements established by DLLR and
     distributed to the Local Boards, and discussions with representatives of DLLR,
     indicated that the Local Boards are required to report available funding, Federal
     accrued expenditures, program income, program income expenditures, total
     grantee funds expended for WIA, and transfers to and from other funding streams.

     Obligation information was not reported on the QSRs for our review period.
     DLLR representatives told us that they had intended for Local Boards to report
     obligations, but Local Boards opposed the practice due to concerns over losing
     funding should the level of obligations reported fall below 80 percent. However,
     the practice of reporting obligations to DLLR has since been instituted, effective
     July 1, 2002.

5.   Obtain or prepare from documents supporting the FSRs, a summary of the
     FSRs from the Local Boards and analyze this information to select the Local
     Boards to visit.

     We obtained a report from DLLR summarizing allocations and expenditures at
     Local Boards. Utilizing this information, we made a judgmental selection of three
     Local Board offices in which to conduct fieldwork. The Local Boards selected
     for site visits were Baltimore City, Baltimore County and Montgomery County.

6.   Compare the information compiled at ETA to the reports prepared by
     DLLR and explain any differences determined.

     We compared the FSRs reported to DOL by DLLR, to corresponding data
     compiled at ETA. The information on the FSRs agreed with the information
     compiled at ETA. Key elements of the FSR data were extracted from the reports,
     including Total Federal Funds Authorized, Obligations, Outlays (accrued
     expenditures), and the Unobligated Balance of Federal Funds for each PY and
     FY. The extracted data was then used to perform the analytical procedures as
     described at item 7 of this report.




                                          7
7. Perform an analytical review of the information obtained to develop trend
   information and investigate any unusual relationships noted.

   Total Federal Funds Authorized

   The following table shows the total WIA funds awarded by DOL to DLLR since
   inception of the WIA program:

    Funding   Beginning of    Expiration of             Total WIA Funds
     Year   Spending Period Spending Period                 Awarded
    PY 1998 JTPA transition June 30, 2001               $     809,849

    PY 1999 JTPA transition        June 30, 2002        $   11,081,699

    PY 2000 July 1, 2000           June 30, 2003        $ 22,762,126

    FY 2001    October 1, 2000     June 30, 2003        $ 21,383,918

    PY 2001 July 1, 2001           June 30, 2004        $ 22,892,643

    FY 2002    October 1, 2001     June 30, 2004        $ 20,847,482

    Less       Rescission of PY 2001 funds              ($ 1,377,309)
                           Total Awards                 $ 98,400,408

   WIA funds are awarded on a PY basis from July 1 to June 30, except for Youth
   grants that are available in the April preceding the start of the PY. However, a
   portion of PY 2000 and 2001 funding denoted as “FY” above, was not available
   until October 1 of each respective PY.




                                       8
7. (Continued)

      WIA Funds Obligated

      Data presented below reflects total WIA funds obligated by DLLR, as of
      December 31, 2001.

                                                       Total WIA
                                    Total Funds          Funds            Amount           Percent of
                                      Awarded          Obligated        Unobligated         Funding
         Funding Period             (in millions)     (in millions)     (in millions)     Unobligated
            PY 1998                 $      0.8        $      0.8        $     0.0             0.0 %

             PY 1999                 $     11.1        $     11.1       $       0.0            0.0 %

             PY 2000                 $     22.8        $     22.8       $       0.0            0.0 %

             FY 2001                 $     21.4        $     21.1       $       0.3            1.4 %

             PY 2001                 $     22.9        $     22.9       $       0.0            0.0 %

             FY 2002                 $     20.8        $     18.0       $       2.8           13.5%

    Less: PY 2001 Rescission        ($       1.4)            N/A        ($      1.4)            N/A

    Total                            $     98.4        $     96.6       $       1.8            1.8%

      Note: Information in the above table was obtained from the Quarterly Financial Status Reports
      prepared by DLLR and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above. In some instances individual amounts in the above columns do not sum the amounts
      presented as the total due to rounding differences.

      Of the total $98.4 million of funding available, only $1.8 million (1.8 percent)
      remained unobligated as of December 31, 2001. However, as discussed at item 1
      of this report, in addition to obligations made at the State level, DLLR reports
      funds to be “obligated” upon allocation to Local Boards.




                                               9
7. (Continued)

      Total Federal Expenditures

      The following summary reflects total WIA expenditures reported by DLLR,
      through December 31, 2001. These amounts are recorded in DOL’s general
      ledger.

                                      Total Funds           Total       Amount                Percent of
                                        Awarded         Expenditures Unexpended                Funding
             Funding Year             (in millions)     (in millions) (in millions)          Unexpended
               PY 1998                $     0.8         $      0.8    $        0.0               0.0 %
                 PY 1999              $     11.1        $        9.7       $         1.4        12.6 %
                 PY 2000              $     22.8        $       21.6       $         1.2             5.3 %
                 FY 2001              $     21.4        $       12.7       $         8.7        40.7 %
                 PY 2001              $     22.9        $        9.2       $       13.7         59.8 %
                 FY 2002              $     20.8        $        0.0       $       20.8        100.0 %
     Less: PY 2001 Rescission        ($       1.4)             N/A         ($        1.4)             N/A
     Total                            $     98.4        $       54.0       $       44.4         45.1 %

      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by DLLR and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above.

      Of $98.4 million in total WIA funds awarded to DLLR, they spent $54 million
      (54.9 percent), leaving $44.4 million (45.1 percent) unspent as of December 31,
      2001. At this rate of spending, it would take approximately fifteen months to
      spend the remaining funds, during which time DLLR would receive additional
      WIA allocations.




                                              10
7. (Continued)

      Expenditure Analysis by Funding Stream

      The following provides a summary of the unspent funding by program
      component:

                                            Amount             Amount             Percent
                                            Awarded            Unspent            Unspent
          Program Component               (in millions)      (in millions)

       Local Board Activities:
       Adults                            $     23.0          $     10.4            45.2%
       Dislocated Worker                 $     24.3          $     11.6            47.7%
       Local Admin                       $      8.7          $      4.0            46.0%
       Youth                             $     23.2          $      8.5            36.6%
       Total Local Board
        Activities                       $     79.2          $     34.5            43.6%

       State Activities:
       State-wide Activities             $     14.8          $      8.5            57.4%
       State-wide Rapid Response         $      5.8          $      2.8            48.3%
       Total State Activities            $     20.6          $     11.3            54.9%

       Less: PY 2001 Rescission         ($      1.4)        ($      1.4)             N/A

       Total Funding                     $     98.4          $     44.4            45.1%

      Note: Information in the above table was obtained from quarterly Financial Status Reports
      prepared by DLLR and summarized. Additionally, a portion of PY 2001 funding was rescinded as
      noted above.

      The expenditure data submitted by DLLR through December 31, 2001, indicates
      that $11.3 million (54.9 percent) and $34.5 million (43.6 percent) of WIA funds at
      DLLR and Local Board levels respectively, were not spent as of that date.




                                              11
8.   Interview the appropriate Local Board personnel regarding how information
     is accumulated and about the preparation of the Local Board reports to
     DLLR. Inquire as to the source of obligation, expenditure and/or payment
     information reported to DLLR by the Local Board, and determine if the
     information reported agrees with the corresponding source accounting
     records.

     Through discussions with Local Board personnel, we determined that they report
     available funding, Federal accrued expenditures, program income, program
     income expenditures, total grantee funds expended, and transfers on the QSRs.
     We obtained copies of these reports from DLLR as well as Local Boards during
     our visits.

     We reviewed source accounting records at the three Local Boards we visited, to
     determine if they agreed to information reported to DLLR. In all instances, the
     Local Boards provided us with documentation supporting the amounts reported as
     available funding and expenditures.

9.   Determine how the Local Board tracks the various funding periods and if
     data is reported and accounted for in a manner which will allow
     expenditures to be matched against the appropriate obligation or
     subcontract agreement.

     The Local Boards employ FIFO methodology in associating period expenditures
     with funding sources. This methodology does not allow for the matching of a
     particular period’s expenditures with the funding allotted to that period.
     Expenditures reported by Local Boards are not matched with funding applicable
     to the period in which the expenditures accrued. Rather, current expenditures are
     charged against prior period funds until exhausted and then matched against
     subsequent periods’ funding.

     For example, after PY 2000 had lapsed, any funding that remained was used to
     satisfy a subsequent period’s expenditures until all PY 2000 funding was
     exhausted. PY 2001 funding would subsequently be used to satisfy expenditures.
     Matching a period’s expenditures against prior period funding dissociates the
     funding allotted to a specific period from the costs of that period.




                                         12
10.   Determine how the Local Board defines an obligation and the point at which
      funds are considered to be obligated. Determine if the Local Board
      definition includes only anticipated expenditures to meet bona fide needs of
      the funding program year for which a legal liability exists.

      At the three Local Boards visited, representatives indicated that the “obligation”
      of funds coincides with the decision to contract for services under WIA. Funds
      are obligated in anticipation of making payments to contractors, for bona fide
      needs of the WIA program. Legal obligations are created when Local Boards sign
      contracts. Thus, the Local Board’s definition includes only anticipated
      expenditures to meet bona fide needs for which a legal liability exists.

      However, as mentioned at item number 9 of this report, there is no appropriate
      matching of the funding year and program year expenditures due to DLLR’s and
      Local Boards’ use of FIFO methodology. Also, as mentioned at item number 8 of
      this report, the Local Boards neither track nor do they report obligations to DLLR.




                                          13
                                                                       EXHIBIT I

                  SAMPLE FINANCIAL STATUS REPORT




Following this title page is a WIA financial status report used to report program
activities to DOL.




                                    14
15
                                                                     EXHIBIT II

                    THE COMPLETE TEXT OF
                MARYLAND’S REPONSE TO THE DRAFT
                AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Maryland’s response to our
agreed-upon procedures report, issued to them on February 28, 2003.




                                    16
17
